No. 19-

 

In THE
Supreme Court of the United States

CeprIc L. McDONALD,

Petitioner,
v.

UNITED STATES,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Armed Forces

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains

4,168 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 28, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
